audit report



Return to the USDOJ/OIG Home Page



Office of Justice Programs Bureau of Justice Assistance Police Hiring Supplement Grant
	to the Seattle Police Department, Washington
GR-90-99-011
Febuary 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, completed an audit of a grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Seattle Police Department (SPD), Washington.  The SPD received a grant of $1,452,390 to hire 20 additional police officers under the Police Hiring Supplement (PHS) program.  The purpose of the grant was to enhance community policing efforts.

	We found the following weakness during our audit regarding grant conditions:

The SPD did not submit two of the 15 required quarterly Financial Status Reports (FSRs); and one FSR was submitted late.

The above item is discussed in the Findings section of the report.  Because the grant period has expired, we are not making any recommendations.  Our audit scope and methodology are described in the Appendix.